                of -- -
- - -- -------- --

         OFFICE OF
    INSPECTOR GENERAL




                          FEBRUARY 1998
                          OEI-09-95-00410
              E X E C U T I V E S U M M A R Y


PURPOSE

To provide baseline data about the ambulance industry and determine how State and local
ordinances affect the delivery of ambulance services.

BACKGROUND

According to Section 1861(s)(7) of       Social Security Act, Medicare pays for medically
necessary ambulance services when other forms of transportation would endanger the
beneficiary’s health. Ambulance suppliers provide two distinct levels of service--advanced
life support and basic life support. The major distinctions between the levels are the types
of vehicles and the skills of the personnel and the services they render.

The Health Care Financing Administration (HCFA) is considering proposed Medicare
regulations that would base reimbursement for ambulance services on the patient’s
condition rather than the type of vehicle and personnel used. The final rule may include a
special waiver for suppliers in non-Metropolitan Statistical Areas who would be hurt
financially if they use only advanced life support ambulances. The HCFA may consider
several options and may include a special waiver only if HCFA is convinced through
overwhelming information of the need for the waiver.

We decided to examine the effect and need for a special waiver based on Metropolitan
Statistical Areas and non-Metropolitan Statistical Areas. In addition, we developed
baseline information on the number of ambulance suppliers, vehicles, and personnel
nationwide. We conducted in-person and telephone interviews with 53 State Emergency
Medical Services Directors for the 50 States, the District of Columbia, the Commonwealth
of Puerto Rico, and the U.S. Virgin Islands. Using a structured discussion guide, we
(1) identified State, county, and municipal mandates that require specific levels of
ambulance services and (2) obtained baseline data on the number of suppliers, licensed
vehicles, and certified personnel operating within the States in 1995 and 1996. We
analyzed the 1995 universe of Medicare ambulance claims to determine the distribution of
allowed claims by Metropolitan Statistical Areas and non-Metropolitan Statistical Areas
for the 53 States. We also reviewed financial analyst reports on the ambulance industry.

FINDINGS

Medicare ambulance costs and services are skyrocketing

Between 1987 and 1995, Medicare allowances increased 229.1 percent from $602 million
to almost $2.0 billion. More than four out of five Medicare ambulance services are
provided in Metropolitan Statistical Areas. In 1995, this translated to about 6 million of
the 7.5 million services rendered in Metropolitan Statistical Areas.



                                             1
Ambulance service is a growth industry controlled by a few major corporations

The Emergency Medical Services Directors in 41 of the 53 States noted that three large
corporations are buying out small private ambulance companies in their States. The three
major corporations--Laidlaw, American Medical Response, and Rural/Metro--are located
in all 41 primary and shared State markets. By the end of 1996, these three corporations
owned at least 20 percent of the national private ambulance market.

All States regulate ambulance services; however, less than half mandate levels of service
and only one requires advanced life support

All States have administrative codes and regulations that set standards for ambulance
services. The codes and regulations set requirements for licensure, certification, and
recertification of ambulance suppliers, vehicles, and personnel to operate within the
States. Nationally, 21 of the 53 States legislatively mandate a minimum level of
ambulance services. Of these, Hawaii is the only State that requires advanced life support
services. Approximately 11 percent of localities also mandate ambulance services, and
another 11 percent of localities contract for ambulance services using general tax
revenues.

Only two States use Metropolitan Statistical Areas to designate ambulance service areas

Of the 53 States, 5 1 (or 96.2 percent) do not define their ambulance service areas as
Metropolitan Statistical Area and non-Metropolitan Statistical Area. The significance is
that HCFA may consider a waiver exception in the proposed ambulance regulations based
on a Metropolitan Statistical Area/non-Metropolitan Statistical Area designation. If the
waiver exception is based on this designation and all non-Metropolitan Statistical Area
suppliers qualified for waivers, HCFA would continue to allow at least $185.7 million
annually in advanced life support reimbursement. Furthermore, a portion of the current
$134.0 million in basic life support allowed services may be billed and allowed at the
higher advanced life support level assuming suppliers with waivers converted their
programs to provide advanced life support services only.

RECOMMENDATION

Previous Office of Inspector General studies have recommended that HCFA base
reimbursement on the patient’s condition rather than the type of vehicle and personnel
used. We continue to support this recommendation. In addition, HCFA should:

       re-evaluate its proposal to use the Metropolitan Statistical Area/non-Metropolitan
       Statistical Area designation as the basis for granting waivers when determining a
       waiver policy in its final rule on ambulance coverage.




                                             ii
AGENCY COMMENTS

We received comments on the draft report from the Assistant Secretary for Management
and Budget (ASMB) and HCFA. The HCFA concurred with the general findings and
recommendation of our draft report. Since we released the draft report, HCFA published
the Notice of Proposed Rulemaking for Medicare ambulance services on June 18, 1997.
The proposal includes two options for a waiver provision for suppliers in
non-Metropolitan Statistical Area designations.

Both HCFA and ASMB stated that HCFA had not yet decided which option, if any, it
would use to grant waivers. Based on these agency comments, we modified the
recommendation on the Metropolitan Statistical Area/non-Metropolitan Statistical Area by
making an explicit reference to        proposed rule. We also made changes based on
        technical comments.

The full text of each agency’s comments appears in appendix D.




                                           111
                        T A B L E O F C O N T E N T S


                                                                                                        PAGE


EXECUTIVE SUMMARY

INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           7

  �    Medicare ambulance costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

  �    Growth industry . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

  �    State standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

  �    Metropolitan Statistical Areas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

AGENCYCOMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

APPENDICES

A: Emergency Medical Services Training Requirements for Ambulance Personnel . . A-l

B: Number of Ambulance Suppliers, Vehicles, and Personnel
   for 1995 and 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-l

C: Breakdown of 1995 Ambulance Services and Allowed Amounts by 	
    and            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-l

D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-l
                           I N T R O D U C T I O N


PURPOSE

To provide baseline data about the ambulance industry and determine how State and local
ordinances affect the delivery of ambulance services.

BACKGROUND

Coverage and payment for ambulance services under Medicare depend on a variety of
factors including the patient’s medical condition, the equipment used to transport the
patient, and the types of personnel rendering services. To help explain these factors, we
have included the following scenario.

       John Blue, age 72, gets up early one Saturday morning to mow the lawn.
       He has not been feeling well the last few days and dreads the yard work.
       He starts the mower, however, and begins to mow. After making the first
       pass over the lawn, he feels a terrible pressure in his chest, as if someone
       kicked him. He leaves the mower running and sits down on the lawn. By
       now, he is pale and is sweating profusely. He then clutches his chest, his
       vision goes black, and he falls to the ground.

       Across the street, Jane Smith is returning from her morning jog and sees
       Mr. Blue collapse. Jane runs across the street and quickly senses that her
       neighbor may be in cardiac arrest. She calls 911 for help from her cellular
       telephone, gives the information to the dispatcher, and starts
       cardiopulmonary resuscitation (CPR) .

       The dispatcher sends emergency medical services teams. Within 2 minutes,
       the first responders, who are volunteer fire fighters, arrive. They begin
       two-person CPR. Within another 2 minutes, paramedics arrive by
       ambulance. They quickly evaluate Mr. Blue’s condition and apply an
       automatic defibrillator to electrically stimulate the heart. Mr. Blue now has
       a pulse and is being ventilated with supplemental oxygen. The paramedics
       administer medication and start an intravenous drip. The paramedics then
       transport Mr. Blue to Central Hospital. Within minutes of his collapse,
       Mr. Blue is on his way to the hospital.

We will use this scenario to illustrate Medicare coverage and reimbursement for
emergency ambulance services in this report.




   ‘Scenario adapted from Bryan Bledsoe, Robert Porter, and Bruce Shade, Paramedic
Emergency Care, 3rd edition, 1997, p. 18.

                                            1
Medicare Coverage of Ambulance Services

Medicare pays for medically necessary ambulance services, according to

Section 1861(s)(7) of The Social Security Act, when “the use of other methods of

transportation is contraindicated by the individual’s condition, but only to the extent

provided in regulations. Health Care Financing Administration (HCFA) regulations state

that ambulance services are covered only if other forms of transportation would endanger

the beneficiary’s health. Medicare does not cover other forms of transportation, such as a

wheelchair or stretcher van, that could transport patients who do not require ambulance

services. In the scenario, other forms of transportation may have endangered Mr. Blue’s

condition.


Ambulance suppliers* must satisfy State and local requirements to operate within a State

and must comply with              regulations to qualify for Medicare reimbursement. To

meet            definition of an ambulance, each vehicle must (1) be designed specifically

for transporting the sick or injured; (2) contain a stretcher, linens, first aid supplies,

oxygen equipment, and other lifesaving equipment required by State or local ordinances

(usually adapted from the General Services Administration KKK-A-1822 standards); and

(3) be staffed with personnel trained to provide first aid treatment. The paramedics in the

scenario provided emergency medical treatment and then transported the patient to the

hospital in an ambulance.


Levels of Ambulance Service

Ambulance suppliers provide two distinct levels of service, advanced life support (ALS)
and basic life support (BLS). In order to be considered ALS, the ambulance must be
equipped with specialized equipment and medications such as defibrillators and
pulmonary/cardiac monitors. The specialized equipment may be permanently mounted or
portable in nature. The ALS vehicles also maintain radio-telephone contact with
physicians or hospitals.

A more important distinction between ALS and BLS is the personnel who staff the
ambulance. In most States, BLS services are rendered by basic and intermediate
emergency medical technicians          and the more intensive ALS services are rendered
by paramedic          The ALS services may include:

       administering intravenous medications,

       defibrillating the patient, and

       performing other advanced life support services, such as electrocardiogram
       monitoring and airway monitoring.




       will refer to ambulance companies, services, and providers as “ambulance suppliers.”

                                             2
Currently, ambulance reimbursement is based on the type of ambulance and personnel
used (ALS or BLS) and the service status (emergency or non-emergency). In the
scenario, the ambulance supplier would bill Medicare for emergency ALS services.

Growth of State Emergency Medical Services Systems

The emergency medical services (EMS) system emerged only in the past 30 years. Prior
to the late       local fire departments provided most EMS. Fire fighters often had
minimal training in emergency procedures, airway management, or other lifesaving
techniques. The emphasis was on rapid transportation; the prevailing belief was that
care began in the hospital emergency room. Rescue techniques, personnel training, and
equipment were rudimentary.

The federal government allocated funds for EMS after publication of a major study on
prehospital emergency medical care. In 1966, the National Academy of Science/National
Research Council published Accidental Death and Disability: The Neglected Disease of
Modern Society. The report suggested developing EMS systems, training prehospital
emergency care providers, and upgrading ambulances and their equipment. This led to
the enactment of the National Highway Safety Act of 1966 that compelled States to develop
EMS systems or lose highway funding. The Emergency Medical Services Act of 1973
funded the development of regional EMS systems. Since 1981, the Consolidated Omnibus
Budget Reconciliation Act eliminated all federal funding for EMS except block grants.
The Departments of Transportation and Health and Human Services administer these
grants.

The EMS system is marked by increased technology and upgraded professional standards
for regulating and licensing ambulance vehicles and for training and certifying ambulance
             However, regional differences may exist in the frequency and sophistication
of prehospital care.

Licensing Vehicles and Certifying Personnel in States

The State EMS Directors oversee (1) inspecting and licensing             and (2) testing
and certifying emergency medical personnel’ within the States. The organizational
structure of these offices varies considerably throughout the country. Some offices are
located in the State’s Public Health Department or Department of Health and Human
Services, while others are in the Department of Public Safety. A few States have an
independent board that proposes regulations and reports directly to the Governor’s office.
All State EMS Directors set administrative policies and procedures for vehicle and


              pp. 5 and 20.

         will refer to registering or permitting ambulance vehicles as “licensing vehicles.”

         will refer to credentialing, registering, or licensing EMS personnel as “certifying
personnel.

                                                3
personnel standards. The chart below describes the major EMS personnel who provide
prehospital medical care to patients.


        KEY PLAYERS IN PREHOSPITAL EMERGENCY MEDICAL CARE

   A first responder is a police officer, fire fighter, or lay person who has received
   basic emergency medical training such as CPR and basic airway management in an
   approved first responder program. This person’s role is to stabilize the patient until
   the EMT or paramedic arrives. First responders usually do not transport patients.

   The following personnel do transport patients:

  A basic EMT is currently certified through the U.S. Department of Transportation
  National Standard Curriculum for basic            The person is competent in CPR,
  airway management, hemorrhage control, fracture stabilization, emergency
  childbirth, basic extrication (disentanglement), communications, and use of a
  pneumatic anti-shock garment.

  An intermediate EMT is a person who has all the basic EMT skills and is competent
  in limited advanced life support care (typically intravenous therapy and advanced
  airway management).

  A paramedic EMT is a person with the highest level of training for prehospital
  providers. The person has all the basic and intermediate EMT skills and is trained in
  advanced patient assessment, trauma management, pharmacology, cardiology, and
  other medical emergencies. Paramedics should successfully complete Advanced
  Cardiac Life Support and Pediatric Advanced Life Support courses as offered by the
  American Heart Association.

  Several States certify various combinations of EMT levels with airway and/or cardiac
  management, defibrillation, and intravenous therapy.


The HCFA requires at least two trained personnel in the ambulance, one of whom must
have first aid training. As shown in the scenario, prehospital emergency care services are
rendered by various levels of personnel, from first responders to paramedics. The
U.S. Department of Transportation has developed standardized curricula for initial training
and recertification of first responders and all three levels of       The initial training
includes classroom lectures, practical skills laboratory work, and hospital clinical
experience. At the advanced levels, training may include a supervised field internship.
Continuing education includes refresher courses and periodic in-service skills training.
Most States use U.S Department of Transportation curricula to train and certify their



            pp. 28-29.
ambulance personnel. The other States enhance these basic curricula with more
requirements. (The requirements for initial training, continuing education, and
recertification for EMT personnel are described in appendix A.)

Ambulance Industry Consolidation

Until recently, the $7 billion ambulance industry was very               Most ambulance
suppliers were fire department rescue squads and other public agencies, many operating
with only one ambulance. The remaining suppliers were private companies, primarily
small “Mom and Pop” firms.’ Several years ago, several large suppliers started
acquiring competitors. After years of “consolidation, these suppliers have emerged with
a substantial share of the national ambulance market.

Proposed Changes for Medicare Coverage of Ambulance Services

The HCFA is considering proposed regulations to revise Medicare guidelines for
ambulance services. Under current HCFA regulations, the type of vehicle and EMS
personnel who render medically necessary services determine whether the supplier
receives BLS or ALS reimbursement. In the scenario, paramedics treated the patient,
transported him to the hospital in an ALS vehicle, and subsequently the ambulance
supplier submitted a Medicare claim for ALS reimbursement. Under proposed
regulations, HCFA may consider reimbursing suppliers based on the patient’s condition
rather than the type of vehicle and personnel used. The final rule may include a waiver
for suppliers outside Metropolitan Statistical Areas        who might be hurt financially
if they use only ALS ambulances. The HCFA may consider several options and may
include a special waiver only if HCFA is convinced through overwhelming information of
the need for the waiver.

METHODOLOGY

We decided to examine the effect and need for a special waiver based on Metropolitan
Statistical Areas and non-Metropolitan Statistical Areas. In addition, we developed
baseline information on the number of ambulance suppliers, vehicles, and personnel
nationwide. We conducted in-person or telephone interviews in November and
December 1996 with 53 State EMS Directors including the 50 States, the District of
Columbia, the Commonwealth of Puerto Rico, and the U.S. Virgin Islands. (We will
refer to the 53 States and territories collectively as States.) We excluded the Pacific




   “‘Ambulance Chasing,” Time Magazine, December 9, 1996, p. 58.

                Companies Adapt to Market, Modern Healthcare, May 27, 1996, p. 40.

         Magazine, op. cit.


                                           5
Island Trust Territories because of the small number of services rendered during 1995.
Using a structured discussion guide, we:

       identified State, county, and municipal legislative mandates that require specific
       levels of ambulance services;

       identified the responsibilities of the EMS office for inspecting and licensing
       ambulance vehicles and training and certifying ambulance personnel;

       obtained data on the number of ambulance suppliers currently operating within
       each State;

       obtained data on the number of ambulance vehicles licensed in 1995 and 1996 by
       type of vehicle; and

       obtained data on the number of personnel certified in 1995 and 1996.

We analyzed the 1995 universe of ambulance claims to determine the distribution of
allowed claims by          and              for the 53 EMS States. We also reviewed
financial analyst reports and articles on the ambulance industry.

This report is the first in a series on Medicare ambulance services prepared by the Office
of Inspector General.




                                            6

                                    F I N D I N G S


MEDICARE AMBULANCE COSTS AND SERVICES ARE SKYROCKETING

The cost of Medicare ambulance services has skyrocketed over an       period. Between
1987 and 1995, Medicare allowances increased from $602 million to almost $2.0 billion.
The graphic below shows the 229.1 percent increase.




       2.1                                                                 $

       1.8




                       1987                        1994                        1995
                                                   Year


The number of ambulance personnel, vehicles, and services provided also is increasing
dramatically. According to the States, between 1995 and 1996, licensed vehicles
increased from approximately 28,000 to more than 45,000 (60.7 percent increase) and
certified ambulance personnel increased from approximately 427,000 to nearly 7 15,000
(67.4 percent increase). (See appendix B for further detail.) According to HCFA, the
number of services increased from 7.2 million in 1994 to 7.4 million in 1995.

More than four out of five Medicare ambulance services are provided in          In 1995,
this translated to about 6 million of the 7.5 million services rendered in     These
services represented about $1.6 billion of Medicare payments. Almost half of the services




          define an ambulance “service” as a one-way or round-trip ambulance service provided on
a single date by a supplier.

                                               7
in       are BLS services. The table below shows the breakdown of national
expenditures by type of service for      and

                    1995 National Expenditures for Ambulance Services


      Category/Type of Service




                 Cannot determine
                   ALS or BLS
                   SUBTOTAL                            19.1                              17.3

  Virgin Islands (not categorized
  into MSA/non-MSA)                           230       0.0              $66,423         0.0

  Zip code outside United States,              101      0.0              $33,604         0.0
  Puerto Rico, and Virgin Islands
  Cannot determine location of zip          7,883       0.1                              0.1
  code
             TOTALS                                   100.0                            100.0


AMBULANCE SERVICE IS A GROWTH INDUSTRY CONTROLLED BY A FEW
MAJOR CORPORATIONS

Beginning in 1991, several large ambulance suppliers started consolidating the industry by
acquiring competitors, large and small. By the end of 1996, three major suppliers had
emerged with at least 20 percent of the national private ambulance market. American
Medical Response (AMR), after absorbing 75 competitors in 4 years, now operates in




    “The total amounts and percents may not exactly equal the sums of individual amounts and
percents because of rounding.

                                               8
28 States with annual revenues of more than $500 million.                 a subsidiary of the
Toronto-based            Inc., grew ten-fold into at least a $500 million operation in
23 States. Rural/Metro, operating in 14 States, increased its revenues 46 percent to
$250 million.    In January 1997,           announced that it will purchase AMR and
merge it with                       estimates that it then will have about 14 percent of the
U. S . ambulance market.

The EMS Directors in 41 of the 53 States (or 77.4 percent) noted that three large
corporations are buying out small private ambulance companies in their States. The three
major corporations--Laidlaw, AMR, and Rural/Metro--are located in all 41 primary and
shared State markets. Many factors are combining to favor consolidation and to insure the
growth of the ambulance industry and the costs of ambulance services:

       The aging of the U.S. population is likely to increase the total number of
       ambulance services per year, both emergency and non-emergency.

       Rapidly advancing technology and skills are expanding the range of procedures that
       can be performed by ambulance personnel, thereby increasing the average revenue
       per service.

       Privatization of municipal emergency response and fire protection services may
       increase as cities and towns contract with ambulance suppliers. Financial analysts
       expect this to overcome a counter “reverse privatization” trend where municipal
       fire departments take over emergency services in addition to providing first
       response.

       Increasingly, volunteer municipal rescue squads, which have been providing
       essentially free ambulance services, will bill Medicare and other third party
       insurers for their costs.

       Growing economies of scale for regionally dominant ambulance suppliers will take
       market share from smaller firms. These economies are a result of the minimum
       staffing and response time requirements for EMS services and the cost of
       purchasing and maintaining a fleet of ambulances and dispatching operations. By
       combining contiguous operations, a larger player is able to consolidate dispatching
       and eliminate duplicate ambulance units.

       Increasing the need for non-emergency interfacility ambulance services will result
       from managed care plans discharging their members from hospitals sooner into less
       expensive alternative care sites.


               on market share are based on financial analyst reports about the ambulance
industry copyrighted by The Investext Group 1996; State EMS Directors reported State coverage
by consolidators.

         New York Times, January 7, 1997, p. C-2.


                                               9
      Increasing use of non-emergency or scheduled ambulance service, especially
      among large ambulance corporations, will continue. Only 11 States license other
      health care vehicles, such as wheelchair vans. In other States, these vehicles are
      licensed by the same agencies that inspect and license taxicabs. Although these
      11 States licensed 4,158 wheelchair vans and other vehicles in 1996, these vehicles
      represent only about 9.2 percent of all licensed patient transportation vehicles.

The map and chart on the next page show the State EMS Directors’ responses about the
extent of ambulance corporations nationwide.




                                           10

                   National Ambulance Transportation Corporations
                    and their 41 Primary and Shared State Markets




                                                                 AMR only
                                                                 AMR and other
                                                                 Other
                                                              iz None




With the merger of AMR and                the new AMR (AMR, MEDTRANS, and
will have a major presence in 19 STATES and operate in 16 other STATES. RURAL/METRO will
maintain a presence in 2 STATES and operate in 12 other STATES, including 10 with AMR.
2 STATES have corporations other than AMR and RURAL/METRO, and 12 STATES have no known
corporations.
ALL STATES REGULATE AMBULANCE SERVICES; HOWEVER, LESS THAN
HALF MANDATE LEVELS OF SERVICE AND ONLY ONE REQUIRES
ADVANCED LIFE SUPPORT

All States have administrative codes and regulations that set standards for ambulance
services. The codes and regulations set requirements for licensure, certification, and
recertification of ambulance suppliers, vehicles, and personnel to operate within the
States. Four States require ambulance suppliers to apply for a certificate of need and
appear at a hearing to justify the need for their services. Suppliers can operate within
these States only after receiving the certificate of need.

Nationally, 21 of the 53 States legislatively mandate a minimum level of ambulance
services. Of these, Hawaii is the only State that requires ALS services. The other
20 States require “at least” BLS services. Often the mandates are described as minimum
levels of trained personnel who attend patients. For example, to provide BLS services,
most States require at least two personnel in the vehicle, with one EMT (basic or
intermediate) in the back with the patient. The remaining 32 of the 53 States do not
legislatively mandate a minimum level of ambulance services.

Approximately 11 percent of localities mandate minimum standards for ambulance
services. Throughout our interviews, respondents emphasized that almost all localities
voluntarily exceed the minimum State standards by providing BLS and ALS services. As
an example, an EMS Director mentioned, “Though we do not have a State law mandating
any level of ambulance services, ALS services are available to 98 percent of our
population.

Another 11 percent of localities contract for ambulance services using general tax
revenues. State EMS Directors noted that a locality may solicit bids for BLS and ALS
services and use tax revenues to finance the contracts. Of the localities with contracts,
about 44 percent contract for BLS services and 40 percent contract for ALS services.

ONLY TWO STATES USE METROPOLITAN STATISTICAL AREAS TO
DESIGNATE AMBULANCE SERVICE AREAS

Of the 53 States, 5 1 (or 96.2 percent) do not define their ambulance service areas as MSA
and non-MSA. The State EMS Directors define the service areas by (1) counties,
(2) naturally-occurring population densities, or (3) suppliers’ areas of coverage when they
initially apply to provide services.

The significance is that HCFA may consider a waiver exception in the proposed
ambulance regulations based on an MSA/non-MSA designation. A waiver may allow
non-MSA suppliers to demonstrate financial hardships resulting from lower BLS
reimbursement because they operate with ALS vehicles and personnel only. Some State
EMS Directors believe that most non-MSA suppliers in their States would apply for a
waiver. For example, one Director believes that most of his 275 suppliers would apply
for waivers.


                                             12

If HCFA considers and includes a waiver exception in any proposed ambulance
regulations, this exception may have a financial impact on Medicare reimbursement. The
table on page 8 shows that HCFA allowed about $342.8 million (or 17.3 percent) in
            for ambulance services nationally in 1995. The breakdown was about
$185.7 million for ALS services and $134.0 million for BLS services (we cannot
determine the exact level for about $23.1 million of          services). If the waiver
exception is based on an MSA or non-MSA designation and all non-MSA suppliers
qualified for waivers, HCFA would continue to allow at least $185.7 million annually in
ALS reimbursement. Furthermore, a portion of the current BLS allowed services may be
billed and allowed at the higher ALS level assuming suppliers with waivers converted
their programs to provide ALS services only.




                                          13

                     R E C O M M E N D A T I O N


Previous Office of Inspector General studies have recommended that HCFA base
reimbursement on the patient’s condition rather than the type of vehicle and personnel
used. We continue to support this recommendation. In addition, HCFA should:

       re-evaluate its proposal to use the Metropolitan Statistical Area/non-Metropolitan
       Statistical Area designation as the basis for granting waivers when determining a
       waiver policy in its final rule on ambulance coverage.

We have included national and State baseline ambulance data in appendices B and C for
HCFA’s information and analysis.

AGENCY COMMENTS

We received comments on the draft report from the Assistant Secretary for Management
and Budget (ASMB) and HCFA. The HCFA concurred with the general findings and
recommendation of our draft report. Since we released the draft report, HCFA published
the Notice of Proposed Rulemaking for Medicare ambulance services on June 18, 1997.
The proposal includes two options for a waiver provision for suppliers in
non-Metropolitan Statistical Area designations.

Both HCFA and ASMB stated that HCFA had not yet decided which option, if any, it
would use to grant waivers. Based on these agency comments, we modified the
recommendation on the Metropolitan Statistical Area/non-Metropolitan Statistical Area by
making an explicit reference to HCFA’s proposed rule. We also made changes based on
HCFA’s technical comments.

The full text of each agency’s comments appears in appendix D.




                                           14

                              A P P E N D I X A


        EMERGENCY MEDICAL SERVICES TRAINING REQUIREMENTS
                   FOR AMBULANCE PERSONNEL


Since the          the National Highway Traffic Safety Administration of the
U.S. Department of Transportation (DOT) has provided National Standardized Curricula
for prehospital EMS personnel. Most States have incorporated these DOT standards into
their certification requirements for emergency medical technicians             All curricula
allow students to gain the knowledge, skills, and attitude necessary to be a competent,
productive, and valuable member of the EMS team. Courses are designed to instruct
students to serve as a vital link in the chain of the health care team. Training includes all
skills necessary for        to provide emergency medical care at the BLS or ALS level
with an ambulance or other specialized service. All States require continuing education
and recertification for EMS personnel at all levels. Specific courses and refresher skills
vary among States.

In addition to requirements summarized below, DOT also has curricula for EMS
dispatchers and emergency vehicle operators.

FIRST RESPONDERS

The first responder is the first individual who arrives at the scene regardless of the
individual’s certification. It is the goal of the DOT First Responder: National Standard
Curriculum to provide students with the core knowledge, skills, and attitudes to          a
limited amount of equipment to perform initial assessment and intervention, and assist
other EMS providers. The DOT course provides an introduction to these concepts and
an orientation to the specific systems and services with which the first responder will be
affiliated. This level of provider is not intended to be utilized as the minimum staffing for
an ambulance. Enrichment programs and continuing education help fulfill other specific
needs for first responder training.

Twenty-two States report that they currently certify first responders or have plans to do so
shortly.

BASIC EMT

The core curriculum is presented within a 1 lo-hour training program. The basic EMT
works with other health care professionals to deliver professional prehospital emergency
medical care. After successfully completing the program, the student is capable of
performing the following functions at the minimum entry level:

       Recognize the nature and seriousness of the patient’s condition or extent of injuries
       to assess requirements for emergency medical care;


                                          A-l
       Administer appropriate emergency medical care based on assessment findings of
       the patient’s condition;

       Lift, move, position, and otherwise handle the patient to minimize discomfort and
       prevent further injury; and,

       Perform safely and effectively the expectations of the job description.

Twenty-four States require the basic          DOT course, 12 States require 120 hours,
and the remaining 17 States require more than 120 hours of training.

INTERMEDIATE EMT

The intermediate EMT course includes basic EMT skills and training in specific medical
management skills. These skills include the use of 12-lead electrocardiogram machines,
airway management by endotracheal intubation and defibrillating life-threatening
arrhythmias, plus the provision of certain intravenous medications.

The intermediate EMT training requirements vary widely. Ten States do not certify this
EMT level. For the other 43 States, additional training ranges from 27 to 300 hours.

PARAMEDIC EMT

As the highest-trained prehospital emergency care person in the EMS system, the
paramedic concentrates on the care and well-being of the patient. Paramedics must
complete from 500 to more than 1,800 hours of training beyond the other EMT levels.
Paramedics must complete training in advanced medical techniques, such as
transcutaneous cardiac pacing, drug therapy, chest decompression, gastric tube placement,
and the administration of a large range of medications.

Minimum training requirements for paramedics vary substantially from State to State.
Thirty-two States require less than 900 hours, 16 States require between 900 and
1,400 hours, and 5 States do not specify the minimum hours.




                                         A - 2

                              A P P E N D I X B


    NUMBER OF AMBULANCE SUPPLIERS, VEHICLES, AND PERSONNEL
                      FOR 1995 AND 1996

During the interviews with EMS Directors, we obtained data on the number of services,
licensed ambulance vehicles by type, and the number of ambulance personnel by type of
certification. While most States had some data available, many do not have computerized
databases and keep cumulative counts of services, vehicles, and personnel only.

PLEASE NOTE:

For States with available data, EMS Directors stated that 18,523 ambulance suppliers
operate in the 53 States as of December 1996.

For the number of licensed ambulance vehicles:

       10 of the 53 States (18.9 percent) did not have statistics available for 1995.
       4 of the 53 States (7.5 percent) did not have statistics available for 1996.
       5 of the 53 States (9.4 percent) did not have statistics available for both years.

For the number of certified ambulance personnel, many States could not provide separate
statistics for both years. They did, however, provide cumulative statistics for 1996.

The percents of vehicles and personnel may not total 100.0 percent due to rounding.




                                          B-l
                          LICENSED AMBULANCE VEHICLES



                                             1995                            1996
         VEHICLE TYPE             Vehicles          Percent       Vehicles          Percent

     ALS-only vehicle              9,284             33.4          14,773            32.6
     BLS-only vehicle              7,337             26.4         10,580             23.4
               vehicle             7,266             26.1         12,363             27.3
     Rescue vehicle           I      548      I      2.0      I      918       I     2.0
     Fire trucks              I      974      I       3.5     I    1,925       I     4.3
     Air ambulances                  286              1.0            570              1.3
     (fixed wing and rotor)
     Water/Marine                      6             0.02              6             0.01
     ambulances
     Wheelchair vans                 807             2.9             954             2.1
     Other health care             1,305             4.7           3,204             7.1
     vehicles
     TOTALS                   I   27,813      I     100.0     I   45,293      I     100.0


                         CERTIFIED AMBULANCE PERSONNEL



     PERSONNEL TYPE




*NOTE:      These statistics include the cardiac technician and other advanced level personnel
            between the basic and paramedic levels.
                                 APPENDIX

   BREAKDOWN OF 1995 AMBULANCE SERVICES AND ALLOWED AMOUNTS
                      BY     AND


The following tables display the number of services and allowed amounts for 1995 Medicare
ambulance services, broken out by Metropolitan Statistical Area (MSA) and type of service,
for each of the 50 States, the District of Columbia, the Commonwealth of Puerto Rico, and
the U.S. Virgin Islands. In these tables, the total amounts and percents may not exactly
equal the sums of individual amounts and percents because of rounding. We defined a
“service” as a one-way or round-trip ambulance service provided on a single date by a single
supplier.


                                        ALABAMA



      Category/Type of Service




                Cannot




               Cannot determine
                 ALS or BLS
                 SUBTOTAL                 47,894     29.7                            31.8

             TOTALS                      161,069     100.0                           100.0




                                          C-l
                               ALASKA





            Cannot determine
              ALS or BLS




                               ARIZONA




non-MSA    Cannot determine
             ALS or BLS
             SUBTOTAL            8,926    14.4   20.5

          TOTALS                62,178   100.0   100.0



                                c - 2
   Category/Type of Service
                                -   ARKANSAS


                                        Services
                                    Number         Percent

                   ALS                                                          40.6
                   BLS                                           $707,472         2.4
 MSA         Cannot determine                                    $229,112         0.8
               ALS or BLS
              SUBTOTAL                37,577        45.9                        43.7

                   ALS                36,159        44.1                        49.5




                                t
                   BLS                                                            5.7
non-MSA      Cannot determine            739         0.9
               ALS or BLS



                                -
              SUBTOTAL

          TOTALS




   Category/Type of Service
                                -   CALIFORNIA


                                        Services             Medicare Allowed Amount
                                                               Amount         Percent

                   ALS                                                          45.8
                   BLS                                                          42.7
 MSA         Cannot determine                                                     6.3
               ALS or BLS
              SUBTOTAL               553,863        96.2                        94.7

                   ALS                14,045         2.4




                                t
                   BLS                                                            1.0
non-MSA     Cannot determine
                                       1,872         0.3                          0.8
              ALS or BLS



                                -
              SUBTOTAL

          TOTALS


                                      c - 3
                                 COLORADO



                                     Services             Medicare Allowed Amount
   Category/Type of Service
                                 Number         Percent     Amount         Percent
                   ALS             22,162        44.3                         48.6
                   BLS             17,058         34.1                        28.2
 MSA         Cannot determine
               ALS or BLS           2,438          4.9                         6.8

               SUBTOTAL            41,658        83.3                         83.6

                   ALS              4,234          8.5                         9.7
                   BLS              3,694          7.4        $835,641         5.6
non-MSA      Cannot determine
               ALS or BLS             414          0.8        $173,425         1.2

               SUBTOTAL             8,342         16.7                        16.4

          TOTALS                   50,000       100.0                        100.0


                                CONNECTICUT


                                     Services             Medicare Allowed Amount
   Category/Type of Service
                                 Number         Percent     Amount         Percent




            Cannot determine




            Cannot determine
              ALS or BLS

              SUBTOTAL

          TOTALS



                                   c - 4
                                  DELAWARE




Category/Type of Service




          Cannot determine
            ALS or BLS




                             DISTRICT OF COLUMBIA


                                                     Medicare
Category/Type of Service




         Cannot determine
           ALS or BLS
           SUBTOTAL                      0     0.0              $0     0.0

       TOTALS                       18,568   100.0                   100.0


                                    C - 5

   Category/Type of Service
                                -   FLORIDA


                                        Services             Medicare Allowed Amount
                                    Number         Percent     Amount              Percent

                   ALS
                   BLS
 MSA         Cannot determine                                                          2.0
               ALS or BLS
              SUBTOTAL               383,830        93.6                       1     93.7

                   ALS




                                t
                   BLS                 8,208         2.0
non-MSA      Cannot determine            611         0.1
               ALS or BLS



                                -
              SUBTOTAL                                                     1          6.3

          TOTALS                                                                    100.0




                                -   GEORGIA



   Category/Type of Service

                   ALS
                                E       Services
                                    Number         Percent
                                                             Medicare Allowed Amount
                                                               Amount              Percent
                                                                                     33.5
                   BLS                                                               30.0
 MSA         Cannot determine                                                          4.6
               ALS or BLS
              SUBTOTAL               149,345        69.0                             68.2

                   ALS                36,594        16.9                              18.9




                                t
                   BLS                27,973        12.9                              11.1
non-MSA     Cannot determine
              ALS or BLS



                                -
              SUBTOTAL

          TOTALS



                                      C - 6

                                      HAWAII



                                         Services                   Medicare Allowed Amount
   Category/Type of Service
                                     Number             Percent       Amount           Percent
          -

                   ALS                  6,357      1 58.3                                41.0
                    BLS                   834             7.6           $228,011           8.7
 MSA          Cannot determine
                                           80             0.7            $50,582           1.9
                ALS or BLS
               SUBTOTAL                 7,271            66.7                            51.6

                   ALS                  2,875      1 26.4               $484,911          18.4
                    BLS                   340       1     3.1
non-MSA       Cannot determine
                                         418              3.8           $693,336         26.4
                ALS or BLS
               SUBTOTAL                 3.633      1 33.3

          TOTALS                       10,904 I         100.0


                                       IDAHO


                                         Services                   Medicare Allowed Amount
   Category/Type of Service
                                     Number             Percent       Amount           Percent

                   ALS                  2,310      1 15.5
                    BLS                 3.091            20.7
 MSA          Cannot determine
                                 0        130. 1                9        $41,682           1.5
                ALS or BLS                                                                       II
               SUBTOTAL                 5,531            37.1                      I     35.3    11

                   ALS                  2,627      1 17.6
                    BLS                 6,306            42.3
non-MSA       Cannot determine
                                         460              3.1           $122,636           4.3
                ALS or BLS                                                                       II
               SUBTOTAL                 9,393            62.9

          TOTALS                       14,924 1 100.0



                                       c - 7
                                   ILLINOIS



                                      Services             Medicare Allowed Amount
    Category/Type of Service                                              I
                                  Number         Percent     Amount         Percent
          -
          -
                    ALS                                                          24.7
                    BLS                                                          51.9
  MSA         Cannot determine
                                  22,207  5.7
                ALS or BLS                                                I
                                 L
                SUBTOTAL         318,997 81.3                                    83.5

                    ALS             15,715         4.0
                    BLS             53,848        13.7
non-MSA       Cannot determine
                                                                                  1.3
                ALS or BLS                                                I             II
                SUBTOTAL                                                  1      16.5 11

          TOTALS                                                                100.0 II


                                  INDIANA


                                      Services             Medicare Allowed Amount
   Category/Type of Service
                                                             Amount           Percent
                    ALS                                                         32.3
                    BLS                                                         39.5
 MSA          Cannot determine
                                                               $484,387          2.1
                ALS or BLS
               SUBTOTAL            94,311         73.0                          73.8

                   ALS              11,520         8.9                          11.4
                    BLS            22,678         17.6                          13.8
non-MSA       Cannot determine
                ALS or BLS
               SUBTOTAL

          TOTALS                                           ;



                                   C - 8

                             IOWA




Category/Type of Service




          Cannot determine




                             KANSAS


                                              Medicare
Category/Type of Service




         Cannot determine
           ALS or  BLS        1,668     2.8       $644,920     4.4

           SUBTOTAL          29,573   49.6                   46.7

       TOTALS                59,608   100.0                  100.0


                             c - 9
                                KENTUCKY




   Category/Type of Service




             Cannot determine
               ALS or BLS
              SUBTOTAL            85,533        50.3                        52.9

          TOTALS                 170,198       100.0                       100.0


                                LOUISIANA


                                    Services             Medicare Allowed Amount
   Category/Type of Service
                                Number         Percent     Amount         Percent
                   ALS            49,309        35.2                        39.5
                   BLS            48,418        34.6                        26.5
 MSA         Cannot determine
               ALS or BLS          5,703         4.1                          5.7

              SUBTOTAL           103,430        73.9                        71.7

                   ALS            20,593        14.7                         18.3
                   BLS            14,327        10.2                          8.1
non-MSA     Cannot determine       1,554          1.1        $884,974         1.9
              ALS or BLS
              SUBTOTAL            36,474        26.1                        28.3

          TOTALS                 139,904       100.0                       100.0



                                 c - 10

                                  MAINE



                                    Services             Medicare Allowed Amount
   Category/Type of Service
                                Number         Percent     Amount         Percent
                   ALS             9,700        21.1                        22.6
                   BLS            15,398        33.5                        26.5
 MSA         Cannot determine
               ALS or BLS          1,193         2.6         $396,832         3.3

               SUBTOTAL           26,291        57.1                        52.3

                   ALS             6,905        15.0                        20.2
                   BLS            11,245        24.4                        22.8
non-MSA      Cannot determine
               ALS or BLS          1,584         3.4         $576,818        4.7

               SUBTOTAL           19,734        42.9                        47.7

          TOTALS                  46,025       100.0                       100.0


                                MARYLAND



   Category/Type of Service




            Cannot determine




            Cannot determine
              ALS or BLS            262          0.2          $50,464        0.1

              SUBTOTAL            11,732         7.5                         7.1

          TOTALS                 157,464       100.0                       100.0



                                 c- 11

                                 MASSACHUSETTS



                                       Services            Medicare Allowed Amount
   Category/Type of Service
                                                               Amount           Percent
          -

                    ALS                                                            17.8
                    BLS                                                            79.4
 MSA          Cannot determine                                                        2.6
                ALS or BLS
                SUBTOTAL            358,838       99.8                            99.8

                    ALS                  55        0.0
                    BLS                 532        0.1           $196,227             0.1
non-MSA       Cannot determine                                    $79,913             0.1
                ALS or BLS
               SUBTOTAL

          TOTALS


                                   MICHIGAN


                                       Services            Medicare Allowed Amount           II
   Category/Type of Service
                                                               Amount           Percent

                    ALS                                                           45.0
                    BLS                                                           36.8       11
 MSA          Cannot determine
                ALS or BLS                                                  I   3.2         II

               SUBTOTAL             250,170       86.9                      1     84.9       11

                   ALS               18,950        6.6                      1         9.9 II
                    BLS                                                               4.3 II
non-MSA       Cannot determine                           0.9     $617,463 1                  1
                ALS or BLS
               SUBTOTAL                                                     1      15.1

          TOTALS                                                                 100.0      II
   Category/Type of Service
                                -   MINNESOTA


                                        Services               Medicare Allowed Amount
                                    Number         Percent

                   ALS
                   BLS
 MSA         Cannot determine                                        $850,768          5.5
               ALS or BLS                                                        I
              SUBTOTAL                33,804        64.3                         1    65.0   11

                   ALS                 5,669        10.8                              17.2
                   BLS                11,984        22.8                              14.0
non-MSA      Cannot determine
               ALS or BLS       t                                    $590,803          3.8




                                -
              SUBTOTAL                                                                35.0

          TOTALS                                                                     100.0 II




   Category/Type of Service
                                -   MISSISSIPPI


                                        Services


                                                                   $13.513.552       56.6    11


 MSA         Cannot determine
               ALS or BLS
              SUBTOTAL                36,158        48.8                         1   58.7

                   ALS                18,177        24.5                         1   27.9    11
                   BLS                18,544        25.0                         1    11.5 11
non-MSA     Cannot determine
              ALS or BLS        t                            1.9     $459,441 /              1




                                -
              SUBTOTAL                                                           1   41.3

          TOTALS                                                                 1   100.0 II



                                      c - 13

                                MISSOURI



                                    Services             Medicare Allowed Amount
   Category/Type of Service
                                Number         Percent     Amount         Percent
                   ALS            58,306        42.8                        49.8
                   BLS            34,106        25.1                         19.7
 MSA         Cannot determine
               ALS or BLS          2,089          1.5        $899,727         2.4

               SUBTOTAL           94,501        69.4                        71.9

                   ALS            30,755        22.6                        22.2
                   BLS             9,408         6.9                         4.6
non-MSA      Cannot determine
               ALS or BLS          1,445         1.1         $495,693         1.3

              SUBTOTAL            41,608        30.6                        28.1

          TOTALS                 136,109       100.0                       100.0



                                MONTANA



   Category/Type of Service




            Cannot determine




            Cannot determine
              ALS or BLS            918          7.6         $334,007       11.2

              SUBTOTAL             8,832        73.3                        70.6

          TOTALS                  12,047       100.0                       100.0


                                 c - 14

                                NEBRASKA




   Category/Type of Service




                                 NEVADA




non-MSA      Cannot determine       112       0.6   $138,071     1.8
               ALS or BLS
              SUBTOTAL            2,666      13.2   $998,073    13.3

          TOTALS                 20,257     100.0              100.0



                                 c - 15

                                NEW HAMPSHIRE



                                      Services             Medicare Allowed Amount
   Category/Type of Service
                                  Number         Percent     Amount         Percent
                   ALS               5,714        18.3                        23.3
                   BLS              14,860        47.5                        41.2
 MSA         Cannot determine
               ALS or  BLS             933         3.0         $325,645         4.0

               SUBTOTAL             21,507        68.7                        68.5

                   ALS               2,916         9.3         $909,306        11.1
                   BLS               6,531        20.9                         19.0
non-MSA      Cannot determine
               ALS or  BLS             351          1.1        $119,091         1.4

              SUBTOTAL               9,798        31.3                        31.5

          TOTALS                    31,305       100.0                       100.0



                                 NEW JERSEY



   Category/Type of Service




            Cannot determine
              ALS or BLS                   0       0.0                $0       0.0

              SUBTOTAL                     0       0.0                $0       0.0

          TOTALS                   236,896       100.0                       100.0


                                   C - 16

                                NEW MEXICO




   Category/Type of Service




             Cannot determine
               ALS or BLS




                                NEW YORK





non-MSA     Cannot determine
              ALS or BLS            1,176     0.2   $529,448     0.4

              SUBTOTAL             31,201     6.0                6.5

          TOTALS                  522,924   100.0              100.0



                                  c - 17

                             NORTH CAROLINA




Category/Type of Service




          Cannot determine




                             NORTHDAKOTA




         Cannot determine
           ALS or BLS
           SUBTOTAL               8,084    68.1    62.9

       TOTALS                     11,879   100.0   100.0



                                 c - 18

   Category/Type of Service




             Cannot determine
               ALS or BLS
              SUBTOTAL            65,699        17.0                         12.9

          TOTALS                 387,460       100.0                       100.0


                                OKLAHOMA


                                    Services             Medicare Allowed Amount
   Category/Type of Service
                                Number         Percent     Amount         Percent
                   ALS            30,114        36.8                        45.5
                   BLS             9,060        11.1                          6.6
 MSA         Cannot determine
               ALS or BLS          4,679         5.7                          7.2

              SUBTOTAL            43,853        53.6                        59.3

                   ALS            19,667        24.0                        29.3
                   BLS            16,745        20.5                          8.9
non-MSA     Cannot determine       1,587          1.9        $655,936        2.5
              ALS or BLS
              SUBTOTAL            37,999        46.4                        40.7

          TOTALS                  81,852       100.0                       100.0



                                 c - 19

                                   OREGON



                                      Services               Medicare Allowed Amount
   Category/Type of Service
                                  Number         Percent         Amount           Percent

                   ALS                                                               60.2
                   BLS                                                                6.8
 MSA         Cannot determine                                      $173,276           0.9
               ALS or BLS
               SUBTOTAL             27,578        66.7                               67.9

                   ALS               9,454        22.9                              26.1
                   BLS
non-MSA      Cannot determine
                                      280          0.7             $148,001           0.8
               ALS or BLS
              SUBTOTAL

          TOTALS


                                PENNSYLVANIA



                                      Services               Medicare Allowed Amount         II
   Category/Type of Service
                                                                 Amount           Percent

                   ALS                                                              27.2
                   BLS                                                              59.2     11
 MSA         Cannot determine                                                         2.0
               ALS or BLS                                                                    II

              SUBTOTAL                                                              88.4

                   ALS                                                        1      4.1    II
                   BLS
non-MSA     Cannot determine                               0.3     $537,124 /                1
              ALS or BLS
              SUBTOTAL                                                              11.6

          TOTALS                   664,507       100.0                        1    100.0    II

                                   c - 20

   Category/Type of Service
          -
                                 -   PUERTO RICO


                                          Services
                                      Number         Percent
                                                               -   Medicare Allowed Amount
                                                                     Amount                Percent
                    ALS                                                  $64,483               0.7
                    BLS                                                                       89.6
 MSA          Cannot determine
                                                                         $43,348               0.4
                ALS or BLS
                SUBTOTAL                46,154        91.3                                    90.6

                    ALS                        50       0.1             $16,943                0.2
                    BLS                  4,346          8.6
non-MSA       Cannot determine
                ALS or BLS                                     f        $12,077                0.1



          TOTALS
                SUBTOTAL

                                 -                             -
   Category/Type of Service
                                 -   RHODE ISLAND


                                          Services
                                      Number         Percent
                                                               -   Medicare Allowed Amount
                                                                     Amount                Percent
                                                                                                      I

                    ALS                                                                      23.4
                    BLS                                                                      74.9     11
 MSA          Cannot determine
                                                                       $187,016
                ALS or BLS                                                         I 1.6             II
               SUBTOTAL                 44,675       100.0                                  100.0 II

                   ALS                         0       0.0                         I                 II
                    BLS                                                            I                 II
non-MSA       Cannot determine
                ALS or BLS
                                               0       0.0
                                                               t                       1

                                                               -
               SUBTOTAL

          TOTALS                                                                   1        100.0 II



                                       c - 21

                                SOUTH CAROLINA




   Category/Type of Service




             Cannot determine




                                SOUTH DAKOTA




non-MSA     Cannot determine           215      1.5   $55,517     2.3
              ALS or BLS
              SUBTOTAL              11,432    79.0              81.0

          TOTALS                    14,468    100.0             100.0



                                    c - 22

                               TENNESSEE




   Category/Type of Service




                                 TEXAS




non-MSA     Cannot determine
              ALS or BLS          5,935      1.4     2.3

              SUBTOTAL           87,151     20.0   20.4

          TOTALS                435,893   100.0    100.0



                                C - 23

                              UTAH




Category/Type of Service




                            VERMONT





         Cannot determine
           ALS or BLS
           SUBTOTAL          11,495    74.5     75.4

      TOTALS                 15,429    100.0   100.0



                             C - 24

                                       VIRGIN ISLANDS



                                        Services                          Medicare Allowed Amount
      Type of service
                                    Number            Percent              Amount           Percent

           ALS                               30            13.0                  $8,329         12.5
           BLS                           198               86.1                 $53,034         79.8
 Cannot determine ALS or                                                                            7.6
                                             2              0.9                  $5,060
           BLS

         TOTALS                          230            100.0                   $66,423        100.0

This table combines the MSA and non-MSA data, because the Virgin Islands have not been
categorized into MSA and non-MSA areas.



                                             VIRGINIA



      Category/Type of Service




                 Cannot determine
                   ALS or BLS
                  SUBTOTAL                        30,772           27.3                        29.9

             TOTALS                           112,810             100.0                       100.0




                                              c - 25
                                 WASHINGTON



                                       Services             Medicare Allowed Amount
   Category/Type of Service
                                   Number         Percent     Amount           Percent
          -
                    ALS                                                          34.1
                    BLS                                                          39.3
 MSA          Cannot determine                                  $644,412           2.5
                ALS or BLS
                SUBTOTAL             65,397         77.8                         75.9

                    ALS               9,329         11.1                          14.5
                    BLS               8,692         10.3
non-MSA       Cannot determine
                ALS or BLS
               SUBTOTAL

          TOTALS                                            ;


                                 WEST VIRGINIA



                                       Services
                                              I
   Category/Type of Service
                                   Number         Percent
                    ALS                                                    1     17.1 11
                    BLS                                                    1     18.8 11
 MSA          Cannot determine                                  $249,986
                ALS or BLS
               SUBTOTAL                                                          37.3    11

                   ALS               17.213       1 16.6
                    BLS
non-MSA       Cannot determine
                ALS or BLS
               SUBTOTAL              61,798         59.5                         62.7    11

          TOTALS                    103,834        100.0                        100.0 11



                                    C - 26

                                   WISCONSIN



                                       Services
   Category/Type of Service
          -
                      ALS                                                       21.4
                      BLS                                                       48.9
 MSA            Cannot determine
                                                                                 8.3
                  ALS or BLS
                  SUBTOTAL           86,640        76.0                         78.6
          I I
                      ALS             5,538          4.9                         7.3
                      BLS            19,770         17.4                        11.3
non-MSA         Cannot determine
                                                                 $703,751
                  ALS or BLS
                  SUBTOTAL

            TOTALS                                          Jl


                                   WYOMING


                                       Services             Medicare Allowed Amount
   Category/Type of Service
                                   Number         Percent     Amount         Percent

                      ALS                                       $163,440        11.6
                      BLS                                       $153,452        10.9
 MSA            Cannot determine
                                                                 $46,695         3.3
                  ALS or BLS
                 SUBTOTAL             1,517        27.0         $363,587       25.9

                     ALS              2,148        38.2         $658,828       46.9
                      BLS             1,838        32.7         $339,937       24.2
non-MSA         Cannot determine
                  ALS or BLS
                 SUBTOTAL

           TOTALS



                                    C - 27

                             A P P E N D I X D



                                 AGENCY COMMENTS

The full text of comments received from the Health Care Financing Administration and the
Office of the Assistant Secretary for Management and Budget follows.




                                         D - l
        Comments from the Health Care Financing Administration



       DEPARTMENT OF HEALTH       HUMAN SERVICES                        Health Care




                                                                                      C.




To:	          June Gibbs Brown
                      General




SUBJECT:	          of Inspector General (OIG) Draft Report: “State Ambulance Policies
              and Services,”


We have reviewed the above-referenced report, which discusses             coverage of
          services and proposes changes to Medicare’s payment policies. The report is
one of a series of OIG reports concerning Medicare coverage and payment for ambulance
services. Previous studies conducted        recommended that reimbursement be based
on the patient’s medical condition rather     the type of      and personnel used in
providing an ambulance service. As the report indicates, the      Care Financing
Administration (HCFA) proposed this reimbursement change, along with a proposal to
consider waivers in certain non-Metropolitan Statistical Areas        in a Notice of
Proposed             issued in June of 1997.

As report suggests,             and payment for ambulance services under Medicare
depend on a variety of factors, including the patient’s medical condition, the
used to transport    patient, and the type of personnel rendering services. Medicare pays
for medically necessary ambulance            under section 186         of the Social
        Act, when “the use of other methods of transportation is                   by the
individual’s condition, but only to the      provided in regulations.”

The OIG report explains that Medicare ambulance costs and services (defined as a
way or round-trip ambulance service provided on a single date) have increased
            over past eight years. Between 1987 and 1995, Medicare allowances
increased           million to almost billion. The number of ambulance personnel,
vehicles, and services provided also increased. The       determined that more than four
out of five Medicare ambulance            are provided in       These         alone
represent about 1.6 billion in Medicare payments.




                                        D - 2

Page Two

OIG continues to support its prior recommendation that HCFA base reimbursement for
ambulance services on the patient’s medical condition rather than the type of
         used. OIG also recommends that HCFA rc-evaluate the use of the
MSA designation as a possible basis for         waivers to this payment policy.

HCFA concurs         all OIG recommendations. Our detailed              are as follows:

OIG Recommendation

HCFA should base reimbursement on the patient’s medical condition rather than the type
of      and personnel used.

HCFA

We concur. HCFA agrees with the general findings and recommendations suggested in
this OIG report and is considering how best to     and implement them.

On June 17, 1997. HCFA published in the Federal             a Notice of Proposed
                     addressing several of the issues raised by the OIG report about
           coverage and payment for ambulance             The         was based on the
work of                                 convened by           which worked           with
representatives      the ambulance industry in developing the proposed rule. In addition
to proposing that payment for ambulance services be based on the medical condition of
the          the NPRM included several other proposals to update and         Medicare’s
ambulance policies, and solicited comments in all of these areas.

In August 1997, after publication of    NPRM, the President signed into law the
Balanced Budget Act of 1997 (BBA), which included a mandate to develop a
schedule for ambulance services through negotiated               to take      by January
         A number of members of             subsequently raised concerns about whether
the proposal the NPRM to base payment on the               medical condition would
        with payment issues to be addressed in the fee schedule regulation and urged
HCFA to incorporate this proposal into the negotiated             mandated by the BBA.

In addition, HCFA received approximately 2,270 public comments in response to the
NPRM, and is reviewing those comments. HCFA plans to proceed         further
development of the        proposals, including the change payment
recommended by OIG. However, in view of the BBA             and Congressional




                                      D - 3

  Page Three

 concerns, we are               how best           the proposed policy to base
 reimbursement on       patient’s medical condition.

       Recommendation

 HCFA          reevaluate the use of the                   designation as the basis for
 granting waivers.



 We concur. The main issue addressed by the        report is         consideration of a
 possible waiver procedure for the proposed new ambulance rule included in the
 which would base ambulance reimbursement levels on         medical condition of the
 patient rather than on the type of      and personnel used.

  In discussions about this         proposal, some representatives of the
  industry voiced concerns that this policy could have a negative impact on a supplier’s
          to serve communities with small populations. Some representatives argued that, in
  areas where it is not economical to operate both basic life support (BLS) ambulances and
  advanced       support (ALS) ambulances, the policy          cause some suppliers to go out
                       discussions led        to solicit comments in the
  interested         on the need for an exception to the proposed         and the areas and
type of suppliers to which such an exception might apply. The NPRM specifically
  described two options being considered if an exception were determined to be warranted.
  one of which (identified as the           option) would have been available only in
  MSA areas. However, it is important to note that HCFA has not decided               to
  adopt an            at    aud if so, whether waivers should be based on a non-MSA
  designation. HCFA specifically invited comments (which were due on August 18.1997)
  on other waiver options not included iu the           and is reviewing those comments.

 Technical

               baram& This short              entitled
 Consolidation” seems incomplete. While it tells us what the industry looked          “until
 recently,” it does not say how the industry has consolidated, as the title implies (e.g.,
 what it looks      now).




                                       D - 4

Page Four

 The 13:report concludes that, if a waiver were to be based on a non-MSA
designation, “HCFA would continue to allow at least $185.7 million                 in
                                    According to         data, this is the amount
          in 1995 for ALS           in              The conclusion appears to assume that
every non-MSA would              for a waiver. In                proposed waiver option
includes other             that must be met in addition to location in a non-MSA            the
          must be the sole supplier in the area and must provide              vehicles and
staff).        data     suggest that many               provide both ALS and
                        assumes        if a waiver based on              were to be adopted,
all             would convert their programs to             to the waiver criteria If so, this
assumption should be made clear.




                                            D - 5

Comments from the Assistant Secretary for Management and Budget



       DEPARTMENT OF HEALTH             HUMAN SERVICES                            Office of the


                                                                                  Washington.
                                            M   A   Y   -   7 1997




 MEMORANDUM TO:                June Gibbs Brown
                               Inspector General

 FROM:                        John J. Callahan
                              Assistant Secretary f

 SUBJECT:                     Concur with Comment: OIG Draft Report, “State
                              Ambulance Policies and Services


The wording of        recommendation in this report implies that HCFA has finalized a decision to
use                 designations as the basis for granting waivers to its proposed ambulance
coverage policy.

In fact, HCFA is only proposing this waiver option in regulation. The regulation will also propose
an alternative waiver option and will seek public comment on both options, as well as any other
options commenters might suggest.

OIG should change the language in its report to clarify that: 1) HCFA has not finalized a decision
on granting waivers, 2) using MSA and non-MSA designations in granting waivers is only one of
two options being considered in its ambulance regulations, and 3) commenters will be asked to
react to the two alternatives and suggest additional options.

OIG may also want to consider changing the wording of its recommendation to say:

.      “When determining a waiver policy in its final rule on ambulance coverage, HCFA should
       re-evaluate its proposal to use Metropolitan Statistical Area/non-Metropolitan Statistical
       Area designations as the basis for granting waivers.”




                                            D - 6

